              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report

Information Technology Support
Services at the Department of Energy's
Operating Contractors




DOE/IG-0725                             April 2006
REPORT ON INFORMATION TECHNOLOGY SUPPORT SERVICES AT
THE DEPARTMENT'S OPERATING CONTRACTORS


TABLE OF
CONTENTS


           Contractor Information Technology Support Costs


           Details of Finding ........................................................................................1

           Recommendations and Comments ..............................................................6


           Appendices


           1. Objective, Scope, and Methodology......................................................8

           2. Prior Reports ........................................................................................10

           3. Management Comments ......................................................................12
CONTRACTOR INFORMATION TECHNOLOGY SUPPORT
SERVICES COSTS

Contractor Provided    Several issues detracted from the Department of Energy's
or Acquired Services   (Department's) ability to effectively manage and control
                       contractor information technology (IT) support service
                       costs. In particular, we noted that contractors usually did
                       not take advantage of opportunities to obtain volume
                       discounts by aggregating demand for services. Overall
                       per user support costs varied significantly between and
                       among contractor operated facilities. In many instances,
                       we also observed that contractor management and Federal
                       officials responsible for assessing performance lacked
                       visibility over the component cost of IT support services
                       because contractors did not actively capture or track all
                       components of those costs at the detail level.

                                          IT Support Services

                       Rather than consolidate demand for the same or similar
                       requirements, 8 of the 12 contractors we surveyed
                       independently acquired or provided IT support to their
                       sites. Contractors arranged for IT support through a
                       variety of means, including providing in-house support,
                       subcontracting, or providing support through their parent
                       company. Although used to aggregate demand in other
                       areas, contractors generally did not use established
                       organizations such as the Integrated Contractor
                       Purchasing Team (ICPT) to identify opportunities for IT
                       support cost savings.

                       The ICPT, formed by the Department with participation
                       by site and facility contractor procurement officials, was
                       designed to "…aggressively pursue consortium buying
                       opportunities that represent procurement leveraged
                       savings for DOE Complex-Wide Prime Contractors."
                       Although the ICPT has been used for consolidating and
                       sharing best practices for IT hardware and software
                       purchases, it had not been employed for acquiring IT
                       support services. Utilizing the ICPT or establishing a
                       similar forum for IT support could provide a means for
                       communications among contractors to consolidate
                       demand and facilitate establishing consolidated contracts.
                       It could also provide a valuable forum for sharing best
                       practices and identifying other cost-saving measures.




________________________________________________________________
Page 1                                            Details of Finding
_______________________________________________________

                                               Service Costs

                         Consistent with the varying methods used to provide IT
                         support services, we found that overall per user costs
                         varied significantly between contractors. For example,
                         we noted that annual per user costs ranged from a low of
                         $3,660 at the Idaho National Laboratory (formerly Idaho
                         National Engineering and Environmental Laboratory), to
                         a high of $7,539 at Fluor Hanford. Even among
                         contractors located in the same geographic area and
                         providing similar services, we found that IT support costs
                         varied by nearly 50 percent. While labor rates within
                         specific geographic areas are generally static, we noted
                         that for contractors at the Hanford complex near
                         Richland, WA, annual costs ranged from a low of $5,100
                         per user per year to over $7,500.

                         While we were ultimately able to identify overall IT
                         support costs through an intensive data gathering
                         exercise, we noted that many of the contractors we
                         reviewed did not actively track or maintain visibility over
                         IT support services costs. Most of the contractors from
                         which we obtained data told us that compiling the
                         information we requested was difficult because their
                         systems did not capture information in a format
                         consistent with Federal guidance. Contractor officials
                         informed us that they were not required to do so and that
                         they did not accumulate information on IT investments in
                         functional cost categories established by the Office of
                         Management and Budget.

Enterprise Acquisition   Although the Department had initiated action to
and Cost Control         consolidate IT support services for Federal employees,
Strategies               it had not established a comprehensive framework for
                         providing IT support services across the complex.
                         Officials did not examine opportunities to establish a
                         corporate-wide approach that included contractor-
                         managed sites. Specifically, contractors were not
                         required to adopt other methods for reducing costs such
                         as coordinating with established consortium buying
                         groups to consolidate demand and obtain volume
                         discounts. Also, contractors did not accumulate costs in a
                         manner that facilitated Federal oversight. In addition,
                         Federal officials charged with monitoring contractor
                         performance did not always employ contracting
                         incentives to help reduce costs.

________________________________________________________________
Page 2                                            Details of Finding
_______________________________________________________

                      In its recent report on Department of Energy: Additional
                      Opportunities Exist for Reducing Laboratory
                      Contractors' Support Costs (GAO-05-897, September
                      2005), the Government Accountability Office (GAO)
                      noted similar concerns regarding the ability to identify
                      and actively manage functional costs. In particular, GAO
                      reported that indirect costs, such as IT support costs that
                      cannot be charged to a specific mission, cannot be
                      compared across laboratories because contractors classify
                      different portions of support costs as indirect. GAO
                      recommended that the Chief Financial Officer clarify
                      functional support cost categories to improve the quality
                      and comparability of support cost data.

                                    Support Acquisition Strategy

                      While the Department has made some progress in
                      consolidating IT support services, it has yet to develop a
                      comprehensive framework that will include support for
                      contractor managed sites. Currently, the Department is in
                      the process of extending the Extended Common
                      Integrated Technology Environment Program (eXCITE),
                      previously a Headquarters only initiative, to cover
                      Federal employees in the field. Federal officials
                      managing the current effort told us that at this point they
                      did not intend for their effort to address all of the
                      Department's needs and had no plans to deploy eXCITE
                      to contractor operated sites. As we noted in our report on
                      Information Technology Support Services Contracts
                      (DOE/IG-0516, August 2001), this segment offers the
                      opportunity for significant savings in that it comprises
                      about 90 percent of the Department's workforce.

                      The Department also did not require that contractors take
                      other available actions to coordinate and consolidate
                      similar IT support demand through consolidated
                      contracts. Instead, it permitted contractors to acquire IT
                      support services as they saw fit. In its recent report on
                      Best Practices: Using Spend Analysis to Help Agencies
                      Take a More Strategic Approach to Procurement (GAO-
                      04-870, September 2004), GAO noted that a strategic
                      approach to procurement should incorporate both
                      developing a better picture of what an agency is spending
                      on goods and services and taking an enterprise-wide
                      approach for procuring goods and services. It noted that
                      taking a strategic approach to procurement can help

________________________________________________________________
Page 3                                            Details of Finding
_______________________________________________________

                      agencies "leverage their buying power, reduce costs, and
                      better manage suppliers of goods and services…."
                      Consolidating demand for similar IT support services
                      could enable contractor-managed sites to take advantage
                      of price discounts by establishing consolidated contracts
                      and also reduce the effort needed to establish and
                      administer contracts.

                      We identified a notable exception at the Hanford
                      complex, where three prime contractors pooled their
                      demand and developed a consolidated contract that
                      provided common IT support services at reduced cost.
                      This consolidated contract resulted in demonstrated
                      savings in excess of $23 million over the first three years
                      of the five year contract.

                                  Monitoring and Controlling Costs

                      While the Department requires that Federal field
                      representatives monitor contractor performance, it did not
                      require contractors to accumulate functional cost
                      information in a manner that permits effective oversight.
                      In most areas, the Department provides contractors with
                      the flexibility to determine how costs are classified and
                      allocated to mission activities and does not specifically
                      require them to accumulate or monitor costs on a
                      functional basis. When responding to our request for cost
                      data, contractor officials told us that they were not
                      required to maintain functional cost information for IT
                      support services and that gathering such data was costly,
                      burdensome, and time-consuming. Similarly, Federal
                      representatives with oversight responsibility were unable
                      to obtain visibility over and objectively evaluate
                      contractors' investments in IT support services because
                      necessary cost information was not available.

                                    Performance-based Contracts

                      Despite Federal requirements, the Department seldom
                      used contract incentives or fee-impacting performance
                      measures to ensure that the best available and most cost-
                      effective method for providing IT support services is
                      used. Federal Acquisition Regulations require agencies
                      to use performance-based statements of work to the
                      maximum extent practicable to enhance performance and



________________________________________________________________
Page 4                                            Details of Finding
_______________________________________________________

                       reduce costs. We noted, however, that 9 of the 10 prime
                       contracts we examined lacked incentives or fee-impacting
                       performance measures to encourage contractors to search
                       for the best available and most cost-effective method for
                       providing IT support services.

                       The opportunity to effectively employ such measures was
                       demonstrated through the terms of the operating contract
                       for the Sandia National Laboratories. Federal
                       representatives responsible for managing that contract
                       recently modified it and incorporated provisions
                       addressing IT support services. The contract now
                       provides that the Sandia contractor can either earn or
                       forfeit portions of its fixed fee, its available contract term,
                       or its ability to provide services, in any combination
                       thereof based on its performance. This determination is
                       based on the contractor's demonstrated ability to meet
                       performance objectives, including those related to
                       management controls over investments in IT support
                       services.

Ensuring Cost          In the absence of a comprehensive framework for
Effective IT Support   managing and controlling IT support services costs, the
Services               Department cannot ensure that contractor-managed
                       operations are providing cost effective IT support. Based
                       on our work, we continue to believe that significant
                       savings may be possible by adopting an enterprise-wide
                       approach to acquiring IT support services. Such an
                       approach would, at a minimum, include providing
                       adequate oversight, pooling demand among contractors to
                       realize economies of scale and reduce contract
                       administration costs, and using performance-based
                       contracts.

                       In one particularly noteworthy example, we analyzed IT
                       support costs for contractor-managed sites located in the
                       Hanford complex and compared their costs to IT support
                       benchmarks established by a Chief Information Officer
                       (CIO) sponsored study Summary Results -- Distributed
                       Computing Environment (DCE) Benchmark and Total
                       Cost of Ownership Study. Our analysis demonstrated that
                       annual IT support costs at just this one complex exceeded
                       the CIO's benchmarks by more than $14 million. For this
                       reason, we believe that additional




________________________________________________________________
Page 5                                            Details of Finding
_______________________________________________________

                     action is necessary in this important area and have made
                     several recommendations designed to improve the
                     Department's management of contractor IT support costs.


RECOMMENDATIONS      To ensure that IT support costs are effectively managed
                     and controlled and potential cost savings are examined,
                     we recommend that the Chief Information Officer
                     coordinate with the Director, Office of Management; the
                     Administrator, National Nuclear Security Administration;
                     and the Under Secretary for Energy, Science, and
                     Environment, to require that the Program Secretarial
                     Officers (PSOs):

                        1. Provide guidance to field offices to ensure that
                           contractor IT support service costs are adequately
                           monitored and controlled.

                        2. Direct field contracting officers to examine
                           opportunities for controlling IT support services
                           costs, including, where appropriate:
                                  a) Determining the practicality of
                                     establishing consolidated IT support
                                     service contracts in support of the work
                                     programs of the Department's major
                                     contractors;
                                  b) Reviewing contracts for potential
                                     inclusion of IT performance incentives
                                     and/or fee-impacting performance
                                     measures consistent with the mission of
                                     the Department; and,
                                  c) Making Departmental organizations
                                     aware of enterprise IT support contracts
                                     that meet IT services needs.


MANAGEMENT           Management generally concurred with the report's
REACTION             findings and supported the concept of coordinating with
                     enterprise buying groups to consolidate demand and
                     obtain volume discounts. However, they felt that such an
                     approach would have to consider each laboratory's
                     specific mission and geographic and infrastructure
                     differences. They also believe that guidance and
                     oversight of field offices and direction to the contractors


________________________________________________________________
Page 6                              Recommendations and Comments
_______________________________________________________

                     are the responsibility of each Program Secretarial Officer.
                     Therefore, management suggested we revise the
                     recommendations to (1) designate the individual Program
                     Secretarial Officers as the lead managers responsible for
                     carrying out the recommendations, rather than the Chief
                     Information Officer, and (2) add a recommendation to
                     make Departmental organizations aware of enterprise IT
                     support contracts that meet IT services needs.

                     We included management's comments in their entirety in
                     Appendix 3.


AUDITOR COMMENTS     Management's comments are responsive to our
                     recommendations and we made changes to the report
                     where appropriate. We have included a recommendation
                     to help ensure that Departmental organizations are made
                     aware of enterprise IT support contracts that meet IT
                     services needs. We also agree that any approach to
                     improving IT support services should consider each
                     laboratory's specific mission and geographic and
                     infrastructure differences. Finally, we agree that each of
                     the individual Program Secretarial Officers should be the
                     lead manager responsible for carrying out our
                     recommendations in their respective program areas.
                     However, to ensure consistency, we believe the Chief
                     Information Officer, as the Department's primary
                     information technology manager, should be the lead
                     manager responsible for coordinating our
                     recommendations.




________________________________________________________________
Page 7                                                 Comments
Appendix 1

OBJECTIVE             The objective of our audit was to determine whether the
                      Department had designed and implemented an effective
                      process for managing and controlling contractor IT
                      support services costs.


SCOPE                 The audit was performed between August 2004 and
                      February 2006 at the Richland Operations Office, Office
                      of River Protection, Pacific Northwest Site Office, Fluor
                      Hanford, CH2M Hill Hanford Group, Bechtel National,
                      Bechtel Hanford, and Pacific Northwest National
                      Laboratory near Richland, WA; Idaho Operations Office
                      and Idaho National Laboratory in Idaho Falls, ID;
                      Chicago Operations Office, Fermi Site Office, Argonne
                      National Laboratory, Fermi National Accelerator
                      Laboratory, and New Brunswick Laboratory near
                      Chicago, IL; and Sandia Site Office and Sandia National
                      Laboratories in Albuquerque, NM. Specifically, we
                      performed a comprehensive review of the agency's key
                      processes for managing contractor IT support services
                      costs.


METHODOLOGY           To accomplish our audit objective, we:

                           •   Reviewed applicable laws, regulations, guidance
                               and best practices pertaining to providing IT
                               support services. We also reviewed relevant
                               reports issued by the Office of Inspector
                               General and the Government Accountability
                               Office;

                           •   Reviewed the Government Performance and
                               Results Act of 1993 and determined if
                               performance measures had been established for
                               managing IT support services;

                           •   Reviewed numerous documents related to the
                               management of IT support services; and,

                           •   Held discussions with Headquarters officials
                               and personnel from the field sites and obtained
                               and reviewed statistics regarding IT support
                               services.



________________________________________________________________
Page 8                             Objective, Scope, and Methodology
Appendix 1 (continued)


                      To calculate potential savings that could be achieved by
                      establishing a more comprehensive framework for
                      managing contractor IT support services, we first
                      obtained 2004 IT support costs for contractors in the
                      Hanford, WA, complex. We then obtained the
                      Department's study Summary Results -- Distributed
                      Computing Environment (DCE) Benchmark and Total
                      Cost of Ownership Study sponsored by the CIO in 2000
                      that established a benchmark for IT support services. The
                      benchmark was based on data obtained from over 200
                      commercial and Government organizations with over 300
                      sites. To bring the IT support service benchmarks up to
                      2004 values, we inflated them using the 2004 Consumer
                      Price Index. Finally, we compared the 2004 IT support
                      costs for contractors in the Hanford complex to the
                      inflated benchmarks and identified a potential for over
                      $14 million in savings.

                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objectives. We assessed
                      significant internal controls and performance measures in
                      accordance with the Government Performance and
                      Results Act of 1993 regarding the management of
                      contractor IT support services costs. We determined that
                      performance measures were established for one program
                      office – the Office of Legacy Management. Because our
                      review was limited, it would not necessarily have
                      disclosed all internal control deficiencies that may have
                      existed at the time of our audit. We did not rely on
                      computer-processed data to accomplish our audit
                      objective.

                      Management agreed to waive the exit conference.




________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 2

                                 PRIOR REPORTS

Office of Inspector General Reports

   •   Special Report: Management Challenges at the Department of Energy
       (DOE/IG-0712, December 2005). The report concluded that, among other
       things, inadequate oversight of contract costs and performance has been a long-
       standing management issue for the Department. The report also noted that a
       series of recent audits have identified weaknesses in subcontract administration
       at national laboratories.

   •   Information Technology (IT) Support Services Contracts (DOE/IG-0516,
       August 2001). The report concluded that the Office of Chief Information
       Officer (CIO) was not effectively managing the acquisition of IT support
       services, despite initiatives sponsored by the CIO. Headquarters and field
       elements routinely obtained IT support services without making maximum use
       of existing Federal contracts designed for this purpose. When existing contracts
       were used, Headquarters program elements did not coordinate or consolidate
       requirements. The report recommended that the Department develop,
       document, and implement an acquisition framework for support services and
       estimated that savings of as much as $44 million may be possible over a three
       year period by adopting a Department-wide approach.

Government Accountability Office (GAO) Reports

   •   Department of Energy: Additional Opportunities Exist for Reducing
       Laboratory Contractors' Support Costs (GAO-05-897, September 2005). In
       Fiscal Year 2004, about two-thirds of the Department of Energy's (Department)
       $26.9 billion in spending went to 28 major facilities -- laboratories, production
       and test facilities, and nuclear waste cleanup and storage facilities. The
       Department spent about $2.9 billion in Fiscal Year 2004 to support the mission
       of its five largest laboratories. GAO found that indirect cost rates cannot be
       compared across laboratories because contractors classify different portions of
       support costs as indirect. Indirect costs are those not charged directly to a
       specific program. Several DOE and contractor officials said that the definitions
       for some categories of support costs lead to confusion and inconsistent
       reporting. GAO recommended that the CFO clarify definitions of functional
       support cost categories.

   •   Best Practices: Using Spend Analysis to Help Agencies Take a More Strategic
       Approach to Procurement (GAO-04-870, September 2004). "Spend analysis" is
       a tool that provides knowledge about who are the buyers, who are the suppliers,
       how much is being spent for what goods and services, and where are the
       opportunities to leverage buying power. GAO's prior work has shown that such
       an approach could help agencies leverage their buying power, reduce costs, and
       better manage suppliers of goods and services. GAO determined that the

________________________________________________________________
Page 10                                              Prior Reports
Appendix 2 (continued)

      Departments of Veterans Affairs, Health and Human Services, and Agriculture
      have made good progress using spend analysis to improve their procurements,
      and they have adopted some elements of a strategic approach. Implementing
      spend analysis is challenging and can take time, and the agencies have not yet
      adopted the full range of private sector best practices. Fully adopting the
      supporting structure, process, and role changes that companies institute would
      enable these agencies to move away from a fragmented procurement process
      and enable them to effectively use spend analysis to achieve significant savings.

  •   Contract Management: Civilian Agency Compliance with Revised Task and
      Delivery Order Regulations (GAO-03-983, August 2003). Revised Federal
      Acquisition Regulations require agencies to use performance-based statements
      of work for task orders to the maximum extent practicable. However, among
      other things, the report noted that only 3 of 22 orders for services reviewed met
      the requirements for performance-based contracting, such as providing
      measurable outcomes for contractor performance.

  •   DOE Contractor Management: Opportunities to Promote Initiatives That
      Could Reduce Support-Related Costs (GAO-02-1000, September 2002). The
      report observed that some types of contractor support-related costs are
      categorized as overhead. It noted that the Department does not track overhead
      costs on a Department-wide basis because overhead costs are not defined
      consistently from contractor to contractor. It also noted that program offices do
      not directly manage or closely monitor contractor support-related costs, but
      instead rely mainly on field offices and contractors to manage these costs.
      Finally, it stated that although contractors have independently implemented
      initiatives to manage certain support-related costs, the Department has not
      analyzed the merits of these initiatives and worked with program offices to
      promote those that have applicability at other sites to achieve cost savings.




________________________________________________________________
Page 11                                              Prior Reports
Appendix 3




________________________________________________________________
Page 12                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 13                                     Management Comments
                                                             IG Report No. DOE/IG-0725

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
